       OFFICE OF JUSTICE PROGRAMS 

COMMUNITY CAPACITY DEVELOPMENT OFFICE AND 

   BUREAU OF JUSTICE ASSISTANCE GRANTS 

               AWARDED TO 

        OKLAHOMA CITY, OKLAHOMA 



           U.S. Department of Justice 

         Office of the Inspector General

                  Audit Division 



       Audit Report Number GR-80-10-004 

                    June 2010

            OFFICE OF JUSTICE PROGRAMS 

     COMMUNITY CAPACITY DEVELOPMENT OFFICE AND 

        BUREAU OF JUSTICE ASSISTANCE GRANTS 

                    AWARDED TO 

             OKLAHOMA CITY, OKLAHOMA 


                        EXECUTIVE SUMMARY



        The Office of the Inspector General (OIG), Audit Division, has
completed an audit of 10 Office of Justice Programs (OJP) Community
Capacity Development Office (CCDO), Weed and Seed grants totaling
$1,692,000 and 2 OJP Bureau of Justice Assistance (BJA) grants totaling
$3,428,984 to Oklahoma City, Oklahoma (the City). The general purpose of
the CCDO Weed and Seed grants was to help establish and sustain a
community-based strategy to prevent, control, and reduce violent crime,
drug abuse, and gang activity in designated high-crime neighborhoods
within Oklahoma City. One of the BJA grants was part of a nationwide
initiative intended to reduce gang membership and violence in 10 districts.
The other BJA grant was to help Oklahoma City provide a multijurisdictional,
intelligence-led policing approach to reduce violent crime.

       OJP provides leadership to federal, state, local, and tribal justice
systems by disseminating grants for the implementation of crime fighting
strategies. OJP does not directly carry out law enforcement and justice
activities. Instead, it works in partnership with the justice community to
identify the most pressing crime-related challenges confronting the justice
system and to provide information, training, coordination, and innovative
strategies and approaches for addressing these challenges.

      According to the Oklahoma City Police Department (OCPD), the total
number of gang members in Oklahoma City in 2001 was 3,789. This
number increased to over 4,000 in 2007. In addition, the OCPD has
reported a significant increase in gang-related drive-by shootings and
homicides.

      The purpose of this audit was to determine whether costs claimed
under the grants were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objectives of this audit were to review performance in the
following areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel and indirect costs; (4) budget
management and control; (5) matching; (6) property management;


                                      i
(7) program income; (8) financial status reports; and (9) monitoring of
subgrantees and contractors. As shown in Exhibit 1, Oklahoma City was
awarded a total of $5,120,984 to implement the grants.

  EXHIBIT 1: OFFICE OF JUSTICE PROGRAM GRANTS 

             AWARDED TO OKLAHOMA CITY 

                                                                              Amount
                                                      Award        Award      Awarded
    Award Number                Award Title          Start Date   End Date      ($)
   2004-WS-Q4-0227  Weed and Seed Support Grant      10/1/2004    5/31/2007     50,000
                    FY 2005 Weed and Seed
                    Program Guide and Application
                    Kit: Continuation Sites (Weed and
   2005-WS-Q5-0064 Seed Continuation)                 10/1/2004  5/30/2006      225,000
   2005-WS-Q5-0164 Weed and Seed Support Grant        10/1/2005  9/30/2006      100,000
                    FY 2004 Weed and Seed
   2005-WS-Q5-0302 Continuation                        1/1/2005  9/30/2007      175,000
                    FY 2005 Weed and Seed
   2006-WS-Q6-0083 Continuation                        1/1/2006 12/31/2007      225,000
                    FY 2005 Weed and Seed
   2006-WS-Q6-0084 Continuation                       10/1/2005  9/30/2007      225,000
                    FY 2007 Weed and Seed
   2007-WS-Q7-0042 Continuation                       10/1/2007 12/31/2008      200,000
                    FY 2007 Weed and Seed
   2007-WS-Q7-0113 Continuation                       10/1/2007 12/31/2008      200,000
                    FY 2007 Targeting Violent Crime
   2007-DD-BX-0631 Initiative                         10/1/2007  3/31/2010      928,984
                    FY 2008 Weed and Seed
   2008-WS-QX-0189 Continuation                       10/1/2008  3/31/2010      150,000
                    FY 2007 Anti-Gang Pilot Site
   2008-PG-BX-0005 Program                             9/1/2007  8/31/2010     2,500,000
                    FY 2009 Weed and Seed
   2009-WS-QX-0117 Continuation                       10/1/2009  9/30/2010       142,000
                     TOTAL AMOUNT OF OJP AWARDS                               $5,120,984
  Source: OIG review of OJP grant awards and related documents

     We examined Oklahoma City’s accounting records, financial reports,
and operating policies and procedures and found the following:

  	 Drawdowns exceeded expenditures by a cumulative $3,535 as shown
     in the Oklahoma City accounting records for 3 of the 12 grants we
     reviewed. In addition, Oklahoma City drew down funds up to
     7 months after the end of the 90-day grant closeout period in seven
     instances.

  	 A city employee opened a savings account in the name of Oklahoma
     City in which only that employee had signatory authority. This
     employee was operating a fund outside the authority of the office of
     the City Treasurer.



                                           ii
	 Transactions charged to grants were unsupported or unallowable for
   58 of 224 expenditures tested. We identified $153,971 in unsupported
   and unallowable costs.

	 We identified $27,847 in unallowable labor costs. In addition,
   timesheets for employees whose salary costs were charged to grants
   were not certified by the employees that they had actually worked on
   the specific grant projects, and amounts charged for multiple
   employees exceeded the approved grant budgets.

	 Cumulative transfers of funds between direct cost budget categories
   exceeded 10 percent of the total award on two of the grant awards for
   a total of $27,008. For three of the grants, we could not perform this
   test because the City could not determine in which budget category
   certain costs belonged. For two of the grants, the test was not
   applicable due to the amount of the award. On the remaining four
   grants, the City complied with the 10 percent requirement.

	 Matching costs agreed to by Oklahoma City were not met on two of
   the grants that required matching contributions. We identified
   $94,240 in required matching costs not met by the City.

	 Equipment purchased with grant funds was not inventoried or
   identified as purchased with federal grant funds.

	 Financial Status Reports were filed late in 23 of 43 submissions and
   were deemed inaccurate in 15 of 43 submissions because they did not
   agree with Oklahoma City’s accounting records.




                                  iii
                           TABLE OF CONTENTS



INTRODUCTION             ..................................................................... 1

                                                                                                 
     Background ......................................................................... 2

                                                                                            
     Prior OJP Site Reviews .......................................................... 3
   
     OIG Audit Objectives, Scope, and Methodology......................... 3
               
     Our Audit Approach .............................................................. 4
   
FINDINGS AND RECOMMENDATIONS ....................................... 6

                                                                       
     Internal Control Environment ................................................. 6
        
     Drawdowns ....................................................................... 10
    
     Transaction Testing ............................................................ 11
     
     Budget Management and Control .......................................... 15
             
     Matching Costs................................................................... 16
    
     Accountable Property .......................................................... 16
      
     Reports ............................................................................. 20

                                                                                              
     Compliance with Grant Requirements .................................... 21
              
     Monitoring Contractors ........................................................ 21
      
     Recommendations .............................................................. 22 

APPENDIX I            – OBJECTIVES, SCOPE, AND METHODOLOGY . 23 

APPENDIX II           – SCHEDULE OF DOLLAR-RELATED 

                        FINDINGS .................................................. 25
APPENDIX III          – DRAWDOWNS VERSUS ACCOUNTING 

                        RECORDS.................................................... 26 

APPENDIX IV           – UNSUPPORTED AND UNALLOWABLE 

                        TRANSACTIONS IDENTIFIED BY OIG 

                        TRANSACTION TESTING ............................. 27                        

APPENDIX V            – BUDGET MANAGEMENT AND CONTROL ....... 30 

APPENDIX VI           – FINANCIAL STATUS REPORT TIMELINESS .. 33 

APPENDIX VII – FINANCIAL STATUS REPORT ACCURACY..... 34 

APPENDIX VIII – OKLAHOMA CITY RESPONSE TO THE 

                DRAFT REPORT ........................................... 36 

APPENDIX IX           – OFFICE OF JUSTICE PROGRAMS RESPONSE 

                        TO THE DRAFT REPORT .............................. 38 

APPENDIX X            – DEPARTMENT OF JUSTICE, OFFICE OF THE 

                        INSPECTOR GENERAL, ACTIONS

                        NECESSARY TO CLOSE REPORT .................. 41 

           OFFICE OF JUSTICE PROGRAMS 

    COMMUNITY CAPACITY DEVELOPMENT OFFICE AND 

       BUREAU OF JUSTICE ASSISTANCE GRANTS 

                   AWARDED TO 

            OKLAHOMA CITY, OKLAHOMA 


                           INTRODUCTION 



        The Office of the Inspector General (OIG), Audit Division, has
completed an audit of 10 Office of Justice Programs (OJP) Community
Capacity Development Office (CCDO) Weed and Seed grants totaling
$1,692,000 and 2 OJP Bureau of Justice Assistance (BJA) grants totaling
$3,428,984 to Oklahoma City, Oklahoma (the City). The general purpose of
the CCDO Weed and Seed grants was to help establish and sustain a
community-based strategy to prevent, control, and reduce violent crime,
drug abuse, and gang activity in designated high-crime neighborhoods
within Oklahoma City. One of the BJA grants was part of a nationwide
initiative intended to reduce gang membership and violence in 10 cities. The
other BJA grant was to help Oklahoma City provide a multijurisdictional,
intelligence-led policing approach to reduce violent crime.
  EXHIBIT 1: OFFICE OF JUSTICE PROGRAM GRANTS AWARDED TO
             OKLAHOMA CITY

                                                                              Amount
                                                      Award        Award      Awarded
    Award Number                Award Title          Start Date   End Date      ($)
   2004-WS-Q4-0227  Weed and Seed Support Grant      10/1/2004    5/31/2007     50,000
                    FY 2005 Weed and Seed
                    Program Guide and Application
                    Kit: Continuation Sites (Weed and
   2005-WS-Q5-0064 Seed Continuation)                 10/1/2004  5/30/2006      225,000
   2005-WS-Q5-0164 Weed and Seed Support Grant        10/1/2005  9/30/2006      100,000
                    FY 2004 Weed and Seed
   2005-WS-Q5-0302 Continuation                        1/1/2005  9/30/2007      175,000
                    FY 2005 Weed and Seed
   2006-WS-Q6-0083 Continuation                        1/1/2006 12/31/2007      225,000
                    FY 2005 Weed and Seed
   2006-WS-Q6-0084 Continuation                       10/1/2005  9/30/2007      225,000
                    FY 2007 Weed and Seed
   2007-WS-Q7-0042 Continuation                       10/1/2007 12/31/2008      200,000
                    FY 2007 Weed and Seed
   2007-WS-Q7-0113 Continuation                       10/1/2007 12/31/2008      200,000
                    FY 2007 Targeting Violent Crime
   2007-DD-BX-0631 Initiative                         10/1/2007  3/31/2010      928,984
                    FY 2008 Weed and Seed
   2008-WS-QX-0189 Continuation                       10/1/2008  3/31/2010      150,000
                    FY 2007 Anti-Gang Pilot Site
   2008-PG-BX-0005 Program                             9/1/2007  8/31/2010     2,500,000
                    FY 2009 Weed and Seed
   2009-WS-QX-0117 Continuation                       10/1/2009  9/30/2010       142,000
                     TOTAL AMOUNT OF OJP AWARDS                               $5,120,984
  Source: OIG review of OJP grant awards and related documents

Background

      In September 2009, the OIG, Audit Division, received a referral from
our Investigations Division regarding an allegation that certain Oklahoma
City officials were improperly using and handling funds related to 12 OJP
grants totaling $5,120,984. As shown by Exhibit 1, the 12 OJP grants had
approved performance periods that began between October 2004 and
October 2009. However, because each grant generally had a performance
period of only 1 or 2 years, eight of the grants had expired by the time we
commenced our audit.

       OJP provides leadership to federal, state, local, and tribal justice
systems, by disseminating grants for the implementation of crime fighting
strategies. OJP does not directly carry out law enforcement and justice
activities. Instead, it works in partnership with the justice community to
identify the most pressing crime-related challenges confronting the justice



                                           2

system and to provide information, training, coordination, and innovative
strategies and approaches for addressing these challenges.

      According to the Oklahoma City Police Department (OCPD), the total
number of gang members in Oklahoma City in 2001 was 3,789. This
number increased to over 4,000 in 2007. Oklahoma City is a large land area
of 621 square miles. Compared to the national average, Oklahoma City has
a higher crime rate in categories such as murder, rape, robbery, and assault.

Prior OJP Site Reviews

       OJP’s Community Capacity Development Office (CCDO) conducted two
site reviews for Oklahoma City’s Weed and Seed Program, one in
October 2005 and another in October 2006. Each site review included
monitoring visits by a CCDO program manager to two different City Weed
and Seed sites and steering committee meetings with local officials
responsible for various aspects of the Weed and Seed program. The CCDO
Director accompanied the program manager on the October 2006 site visit,
which featured a dedication ceremony for a new city community youth
center and a helicopter tour of neighborhood sites receiving program
funding.

      We reviewed the monitoring reports that the CCDO generated after
both site reviews. Neither site review identified substantial issues or
reportable conditions with regard to Oklahoma City’s Weed and Seed
Program. Instead, the site reviews indicated that CCDO personnel were
impressed with program activities and the enthusiasm of City staff charged
with accomplishing grant-funded initiatives. The October 2005 site review
also found that Oklahoma City had submitted all required Financial Status
Reports and that grant financial activity appeared to be following
OJP-approved budgets. 1

OIG Audit Objectives, Scope, and Methodology

      The objectives of this audit were to determine whether Oklahoma City
used OJP grant funds to purchase allowable items and whether the City
adequately tracked and appropriately supported grant purchases. As part of
our review, we also examined personnel costs, purchase card charges, and
whether an employee of the City’s former Neighborhood Services
Department commingled OJP grant funds in the bank account identified by



       1
          According to CCDO monitoring review documents, the October 2006 site visit did not
include a grant file review due to the “abbreviated nature” of the site visit.


                                             3

the OCPD. 2 The scope of our review encompassed October 2004, the start
date of an early Weed and Seed grant to Oklahoma City, to
September 2009, the date we began the audit.

      To accomplish our audit objectives, we conducted fieldwork throughout
Oklahoma City, including testing transactions to determine the allowability
and appropriateness of costs charged to the OJP grants. In addition, we
interviewed officials and employees that work for various Oklahoma City
departments, including the Finance Department, Payroll Department,
Purchasing Department, and the Police Department; as well as the former
Neighborhood Services Department director, to assess city-level internal
control and accounting procedures.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and the award documents.

      In conducting our audit, we performed sample testing in four areas —
drawdowns, grant expenditures, matching, and asset management. In
addition, we reviewed the timeliness and accuracy of Financial Status
Reports (FSR), evaluated the grantee’s monitoring of contractors, and
reviewed the internal controls of the financial management system.

     We examined Oklahoma City’s accounting records, financial reports,
and operating policies and procedures and found the following:

  	 Drawdowns exceeded expenditures by a cumulative $3,535 as shown
     in the Oklahoma City accounting records for 3 of the 12 grants we
     reviewed. In addition, Oklahoma City drew down funds up to
     7 months after the end of the 90-day grant closeout period in seven
     instances.

  	 A City employee opened a savings account in the name of Oklahoma
     City in which only that individual had signatory authority. The
     employee was operating a fund outside the authority of the office of
     the City Treasurer.




     2
         The Neighborhood Services Department was eliminated effective June 30, 2009.


                                           4

  	 Transactions charged to grants were either unsupported or 

     unallowable for 58 of 224 expenditures tested. We identified 

     $153,971 in unsupported and unallowable costs. 


  	 We identified $27,847 in unallowable labor costs. In addition,
     timesheets for employees whose salary costs were charged to grants
     were not certified by the employees that they had actually worked on
     the specific grant projects, and amounts charged for multiple
     employees exceeded the approved grant budgets.

  	 Cumulative transfers of funds between direct cost budget categories
     exceeded 10 percent of the total award on two of the grant awards for
     a total of $27,008. For three of the grants, we could not perform this
     test because the City could not determine in which budget category
     certain costs belonged. For two of the grants, the test was not
     applicable due to the amount of the award. On the remaining four
     grants, the City complied with the 10 percent requirement.

  	 Matching costs agreed to by Oklahoma City were not met on two of
     the grants that required matching contributions. We identified
     $94,240 in required matching costs not met by the City.

  	 Equipment purchased with federal grant funds was not inventoried or
     identified as purchased with federal grant funds.

  	 Financial Status Reports were filed late in 23 of 43 submissions and
     were deemed inaccurate in 15 of 43 submissions because they did not
     agree with Oklahoma City’s accounting records.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                    5

                 FINDINGS AND RECOMMENDATIONS


     We found that many of Oklahoma City’s grant-related
     expenditures did not have proper supporting documentation and
     cumulative transfers of funds between direct cost budget
     categories exceeded 10 percent of the total award for two
     grants. We could not determine compliance on three other
     grants. Employee timesheets for payroll costs did not contain
     certifications of time worked on grant projects. In addition, no
     inventory of federally funded equipment purchases was
     maintained and Financial Status Reports were up to 92 days late
     and inaccurate on 15 of 43 occasions. In addition, we identified
     concerns regarding a bank account, drawdowns of grant funds,
     and matching provision.

Internal Control Environment

      We reviewed Oklahoma City’s financial management system, policies
and procedures, and Single Audit Reports to assess the City’s risk of
noncompliance with laws, regulations, guidelines, and terms and conditions
of the grants. We also interviewed individuals from several areas such as
payroll, purchasing, the Police Department, the Information Technology
Department, and the Director of the former Neighborhood Services
Department and observed accounting activities to further assess risk. 3

      Oklahoma City guidelines require that each department head
implement internal control standards, as shown in Exhibit 2, for purchasing
items by their department.




     3
         The Neighborhood Services Department was eliminated effective June 30, 2009.


                                           6

         EXHIBIT 2: OKLAHOMA CITY INTERNAL CONTROL STANDARDS 

                    FOR DEPARTMENT-LEVEL PURCHASES 


          Segregation of Duties. Department heads must ensure that no
          one individual controls all phases of a transaction, such as
          requesting, paying, approving, and reconciling.

          Documented Policy. Department heads must document internal
          control standards used by their departments and make them
          available to pertinent staff.

          Oversight. Department heads must supervise their employees to
          ensure that purchases are made according to established
          procedures.
         Source: OIG review of Oklahoma City purchasing guidelines

      Based on the evidence we gathered during our audit, we believe that
the former Neighborhood Services Department did not employ adequate
internal control standards for purchases made with OJP grant funds. A
single employee of the former Neighborhood Services Department, who was
a City federal grant planning specialist, reportedly controlled virtually all OJP
grant purchasing functions for that department.

      We found no evidence that the former Neighborhood Services
Department established internal control standards required by Oklahoma
City purchasing guidelines. As a result, we recommend that OJP requires
that Oklahoma City implement procedures to ensure that all departments
that handle OJP grant funds maintain a proper internal control structure
that: (1) segregates purchasing functions, (2) has a documented internal
control policy, and (3) makes certain that purchases are made according to
the established internal control guidelines.

      Our review of the former Neighborhood Services Department internal
control environment also identified potential discrepancies with the
Oklahoma City purchase card program and accountable property controls.
The following section provides the details of our audit.

Bank Account Inappropriately Opened By Oklahoma City Employee

       Article IX of the City Municipal Code 2-843 states that it is a violation
to operate a petty cash system or change fund outside the office of the City
Treasurer with City funds. Once the OCPD began administering Oklahoma
City’s OJP grants, the OCPD discovered that an employee who worked for
the former Neighborhood Services Department opened a savings account in
Oklahoma City’s name without permission and deposited various funds into




                                        7

the account. 4 A total of $7,452 was deposited into the account over a
6-year period beginning in July 2003. Our review identified deposits
resulting from donations, rebates, and other types of reimbursements. In
August 2009, the OCPD closed the savings account and subsequently
provided us copies of its bank statements. When the account was closed, it
had a balance of $57, which was remitted to the Oklahoma City general
fund. We identified $722 that we determined to be related to federal funds.
There was no evidence that grant funds were deposited into this account.
However, we believe federal funds could have been used for personal
purposes.

Single Audit

       According to Office of Management and Budget (OMB) Circular A-133,
Oklahoma City was required to have a single audit performed. Oklahoma
City’s fiscal year is from July 1 through June 30. We found that the City’s
FY 2008 single audit had been completed in a timely manner on
December 11, 2008. There were no audit findings reported, and the City
received an unqualified opinion.

Financial Management System

       We did not test the reliability of the financial management system as a
whole. Our testing involved gathering data from the accounting system and
verifying it to original invoices and supporting documentation. In addition,
we determined that there was sufficient separation of duties and operating
procedures were adequately documented.

Analysis of Oklahoma City Accounting Records

      Oklahoma City uses a computerized accounting system to allocate and
track charges made between various city-level departments. Each
department is assigned a specific department code and has a number of
subaccounts established to facilitate expenditure tracking. Under the former
Neighborhood Services Department code (2309020), Oklahoma City
established individual subaccounts for each OJP grant. Because each grant
had its own subaccount, Oklahoma City was able to allocate individual
expenses and separately track expenditures made against each OJP grant.



       4
         Although the bank account was opened in Oklahoma City’s name, the bank
account’s signature card indicated only this employee was authorized access to account funds.
However, the City’s municipal code states that the Office of the City Treasurer is the only
party authorized to operate any petty cash system or change fund with funds of the City.


                                             8

      However, our analysis of grant accounting records identified over
100 adjusting journal entries with a cumulative value of over $450,000
within grant subaccounts. An adjusting journal entry is a means of
correcting the accounting records when a transaction or event has not been
properly posted to an account. When an error is identified, financial
managers can use adjusting journal entries to move expenditures that were
erroneously charged to a grant to the appropriate account. Therefore, by
making adjusting journal entries to OJP grant subaccounts, Oklahoma City
was essentially reimbursing grant accounts with funds from other grants or
from its general fund.

       Adjusting journal entries made to open grant accounts are not
necessarily improper. If a previous accounting entry contained an error or a
specific charge was allocated to an incorrect account, the only way the
accounting records could be corrected is via an adjusting journal entry. We
found several adjusting journal entries made to the open BJA Anti-Gang
Grant subaccount. We discussed these entries with OCPD officials, who told
us they had authorized these adjustments based upon their review of grant
activity. In their judgment, certain costs that the former Neighborhood
Services Department charged to the Anti-Gang Grant did not appear to be
proper, including the cost of a stereo system, multiple flat-panel televisions,
and a pizza party. Once the OCPD began identifying these charges in the
BJA Anti-Gang Grant subaccount, it decided to adjust the costs out of the
subaccount and pay for these items with Oklahoma City general fund dollars.
As of September 28, 2009, Oklahoma City made a series of adjusting journal
entries totaling over $380,000 on the BJA Anti-Gang Grant account alone.

       Furthermore, we found that some adjusting journal entries occurred on
accounts for grants that had been closed. According to the OJP Financial
Guide, grantees have 90 days after the approved budget period to make
final adjustments to their grant accounting records. Because grant activity
must be completed by the end of the budget period, grant accounting
records should not show activity after the grant period ends.

       Our review identified several journal entries that adjusted over
$80,000 from grant subaccounts more than 90 days after the end of grant
performance periods. We found adjusting journal entries that not only
removed charges but also added new charges. We also identified an
adjusting journal entry made to grant number 2005-WS-Q5-0064 in
April 2009, or almost 3 years after the grant was closed. Making adjusting
journal entries to closed grants indicates that Oklahoma City’s accounting
records were not accurately reporting grant financial activity. Such an
inaccurate accounting of expenditures indicates that we cannot rely on



                                      9

Oklahoma City accounting records to show that grant transactions were
allowable and incurred during the grant performance period.

      Because Oklahoma City made a number of adjusting journal entries
that applied charges to expired grant subaccounts, the City needs to provide
documentation showing that the individual charges adjusted to expired grant
accounts were incurred before the end of the grant’s performance period.
Adequate documentation includes invoices or receipts that show the specific
charge and the date payment was made for that charge.

       Adjusting journal entries in subaccounts for closed grants also indicate
that Oklahoma City accounting procedures lack management controls that
ensure costs are only allocated to OJP grants within approved performance
periods. Considering the number of adjusting entries made to closed grants,
we recommend that OJP require Oklahoma City to apply automatic
restrictions on OJP grant subaccounts that prohibit transactions 90 days
after the end of the performance period of each grant. In addition, require
Oklahoma City to provide documentation showing that the individual charges
it adjusted to expired grant accounts were incurred before the end of the
grant’s performance period.

Drawdowns

      According to the OJP Financial Guide, recipient organizations should
request funds based upon immediate disbursement or reimbursement
requirements. Recipients should time their drawdown requests to ensure
that federal cash-on-hand is the minimum needed for disbursement or
reimbursements to be made immediately or within 10 days.

      Because the grant officials who initiated drawdowns were not available
for us to interview, we spoke with an official at the OCPD to determine the
basis for drawdowns. Based on our discussion, we were unable to determine
on what Oklahoma City’s drawdowns were based. According to Oklahoma
City officials, designated personnel working in the former Neighborhood
Services Department were responsible for making grant drawdown requests.
Once a request was made, OJP electronically transferred grant funds to the
Oklahoma City bank account.

      As shown in Exhibit 3, we compared drawdowns to the accounting
records and determined that drawdowns exceeded expenditures by a
cumulative total of $3,535 for 3 of the 12 grants we reviewed. Additionally,
there were seven instances where Oklahoma City drew down funds up to
7 months after the end of the 90-day closeout period. The remaining grant



                                      10 

drawdowns and expenditures per the accounting records were in agreement.
We thus recommend OJP remedy $3,535 in unsupported costs.

      EXHIBIT 3: DRAWDOWNS EXCEEDING EXPENDITURES

                                 Drawdown
            Grant Number          Amount        Expenditures    Difference
       2005-WS-Q5-0302              $175,000         $174,476           $524
       2005-WS-Q5-0064                225,000          222,816          2,184
       2006-WS-Q6-0084                225,000          224,173            827
                                Total                                  $3,535
      Source: Oklahoma City Accounting Records and OJP documentation

Transaction Testing

      We reviewed the general ledger account designated for grant funds
and sampled 224 transactions. We identified 12 transactions that we
determined were unsupported and 46 transactions that we determined to be
unallowable, for a total of 58, or 26 percent of the transactions tested.

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain adequate records to accurately account for funds
awarded to them. Such records include receipts, invoices, general ledger
adjustments, subsidiary ledgers, personnel and payroll records, cancelled
checks, and related documents. Without such documents, grantees cannot
demonstrate that grant funds were used for allowable purposes.

      In addition to maintaining adequate support for grant transactions,
grantees must be certain to charge only allowable costs to their respective
grants. For the OJP grants, allowable costs are those expenses governed by
OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments. Allowable costs must also be reasonable, allocable, necessary
to the project, and comply with funding statute requirements.

      To assess whether costs charged to the OJP grants were allowable and
supported with adequate documentation, we selected a judgmental sample
of 224 transactions totaling $1,006,265, or 41 percent of the total grant
funds drawn down by Oklahoma City via the 12 OJP grants. To select our
sample, we considered the nature of the grant programs and the preliminary
findings of the OCPD’s ongoing internal review. Our testing found that of the
224 sampled transactions, 12 transactions totaling $16,394 lacked adequate
support and documentation, and 46 transactions totaling $137,577 did not
appear to be for allowable grant purposes (see Appendix IV for a detailed list
of the transactions). For example, Oklahoma City used $12,000 in OJP grant
funds to purchase 30 sets of binoculars. Although OJP initially approved the



                                        11 

purchase of these items, Oklahoma City has not used the binoculars on
grant-related projects.

          EXHIBIT 4: UNUSED BINOCULARS PURCHASED
                     WITH GRANT FUNDS




          Source: OIG
          Note: Identification tags on binocular cases are the result of the
                OCPD inventory of items that had been purchased with OJP
                grant funds.

      Grantees need to maintain adequate documentation for grant award
expenditures. In addition, grantees need to use award funds on purchases
approved by grant budgets and ensure that these purchases further the
objectives of their supported projects. When grant funds are not used to
further program objectives, taxpayer funds that support grant programs are
wasted. Therefore, we recommend that OJP remedy $153,971 in questioned
costs related to unsupported or unallowable expenditures.

Purchase Cards

      A single employee controlled the purchasing process, including making
purchases, receiving the supplies, and making the payment (purchase card).
In essence, this employee controlled the entire process.




                                         12 

      According to Oklahoma City purchasing guidelines, various City
employees have been provided purchase cards to facilitate payments for
department-level purchases. 5 Each card has a preset spending limit, and
employee cardholders can use their assigned purchase cards like a credit
card to pay for purchases up to their account limit. Each cardholder is
responsible for keeping receipts and reconciling them to monthly purchase
card statements.

      According to Oklahoma City guidelines, purchase cards are to be used
for business-related purposes only. In addition, all transactions made with a
purchase card should be made with good judgment and within the functional
responsibilities of the cardholder. Exhibit 5 presents a summary of allowable
and unallowable types of purchase card uses according to Oklahoma City
policy.

           EXHIBIT 5: 	 ALLOWABLE AND UNALLOWABLE USES FOR

                        OKLAHOMA CITY PURCHASE CARDS 


                      Allowable Uses                    Unallowable Uses
            Maintenance                    Personal purchases
            Office Supplies                Car rentals without prior approval
            Telecommunication              Entertainment
            Magazine subscriptions         Alcoholic beverages
            Tools and accessories          Gasoline or fuel costs
            Automobile parts               Cash advances
            Office equipment               Social functions
           Source: Oklahoma City Purchasing Guidelines

      To perform a monthly reconciliation, employees who made purchase
card purchases must sign the monthly card statement confirming their
purchase card activity. The statements and supporting documents (receipts
or invoices) are then reconciled, signed, and approved by both the
cardholder and the cardholder’s supervisor. Once completed, the approved
statement represents an approval for Oklahoma City to pay the purchase
card charges and also serves as a receipt for the purchased items. The
Oklahoma City purchase card policy places the responsibility of retaining
original itemized receipts, invoices, statements, and other supporting
documents on individual city-level departments.

     A City federal planning specialist of the former Neighborhood Services
Department had an Oklahoma City purchase card to pay for grant-related

       5
          According to the Oklahoma Purchasing and Policies Manual, the City’s purchasing
card program, “Pro-Card,” is part of an ongoing effort to continuously improve City processes,
reduce cycle times, and empower employees. The City implemented the program for
primarily small dollar/high volume purchases to assist employees to more quickly and easily
obtain the goods and services needed to get the job done.


                                               13 

services and items. The specialist’s purchase card account had a monthly
limit of $155,000 and a $50,000 per transaction limit. At the time the OIG
Investigations Division referred the matter to us in September 2009, this
employee reportedly used his card to make about $80,000 in purchases
during one monthly billing cycle. The OCPD provided us copies of credit card
statements and reconciliations for this purchase card.

      Our transaction testing included several purchase card transactions.
In many instances, credit card receipts only indicated a total dollar amount
spent and included no additional details of what was purchased or why a
purchase was made. In addition, we found that the purchase card had been
used to pay for items such as food and gift cards, which may violate
Oklahoma City allowable use guidelines that prohibit personal and
entertainment-related expenses. These transactions were included in the
amount reported in our transaction testing section.

Personnel Costs

      We analyzed $73,013 in personnel costs for the grants we reviewed.
We reviewed supporting documentation for two pay periods of personnel and
fringe benefit costs charged to the nine grants that incurred labor charges.
For each employee paid with grant funds, we determined if labor charges
were: (1) computed correctly, (2) properly authorized, (3) accurately
recorded, and (4) properly allocated to the grants.

       We found that labor costs were not always computed correctly,
properly authorized, accurately recorded, or properly allocated to the grants.
Specifically, we identified $27,847, or 38 percent, in labor charges that were
not computed correctly or were not authorized. For example, we found five
employees that were authorized to have a certain percentage of their
salaries and benefits paid with grant funds. However, the amounts actually
charged to the grants were the incorrect percentages. Also, we found
several employees paid with grant funds that should not have been,
including Water and Planning Department employees. Oklahoma City
subsequently adjusted the charges out of the grant.

       Additionally, some grant budgets only allowed certain employees to be
paid with grant funds, but unauthorized employees were paid with the grant
funds. According to OMB Circular A-87, employees working on a single
Federal award or cost objective will periodically certify that they worked
solely on that program for the period covered by the certification. We found
that timesheets for employees whose salary costs were charged to grants
did not contain any certification by the employees that they had actually
worked on the specific grant projects. Furthermore, amounts charged for


                                     14 

multiple employees exceeded the approved grant budgets. We recommend
that OJP remedy $27,847 in unallowable personnel costs and require
Oklahoma City to develop a timekeeping system that allows employees to
track their time on multiple projects.

Budget Management and Control

      According to the OJP Financial Guide, grantees may request a
modification to approved grant budgets to reallocate amounts between
various budget categories within the same grant award. Movement between
approved budget categories is allowable if the movements do not exceed
10 percent of the total award amount — no prior approval is required. The
10 percent rule is only applicable to grants that have an approved award
amount that exceeds $100,000. For the 11 grant awards that had
expenditures, we analyzed Oklahoma City’s accounting records to determine
compliance with the 10 percent rule. Appendix V contains the data related
to the 6 grants whose compliance was tested. The following is a synopsis of
our testing results:

  	 Two grants were at or below the $100,000 minimum threshold.

  	 Three grants had expenditures that the City could not determine in
     which budget category they belonged. Therefore, we could not
     determine whether the City complied with the 10 percent rule.

  	 Two grants contained expenditures in budget categories that exceeded
     the 10 percent rule by a total of $27,008 and had no approval from
     OJP to do so.

  	 Four grants had movement between budget categories but were within
     the allowed 10 percent rule.

      The City did not know why expenditures in budget categories for the
two grants exceeded the 10 percent rule. In response to this finding, we are
recommending that OJP remedy the $27,008 in unallowable transfers and
require Oklahoma City to identify and account for funds in the appropriate
budget categories.

       As shown by Exhibit 6, most of the OJP grant funds were to be spent
on personnel and contractual costs. In addition, grant funds were to be
used to purchase items, such as computers, printers, and large-screen
televisions.




                                    15 

  EXHIBIT 6: GRANT BUDGET COST CATEGORIES


                                                                        Amount Approved
     Cost Category                  Examples of Costs                     by Category
   Personnel        Police officer overtime, employee salary                    $2,047,045
   Fringe Benefits  Retirement, Medical Insurance, and Taxes                       486,381
   Travel           Airfare, lodging, and training                                 105,360
   Equipment        Computers, printers, furniture, and televisions                469,867
   Supplies         Paper, pens, printer toner, and postage                        192,543
   Contractual      Contracts with Entities External to the City                 1,705,326
   Other            Rent, janitorial, telephone, and security systems              114,462
                               TOTAL                                           $ 5,120,984
  Source: OIG analysis of OJP grant budget documents

Matching Costs

       As shown in Exhibit 7, the original budgets called for approximately
$133,340 in local match. Oklahoma City was required to provide its
matching contribution in cash. The total actual match met was only
$39,100, which was well below the required match by a total of $94,240. 6
Therefore, we question $94,240 in matching costs not met by Oklahoma
City, and we recommend OJP remedy this amount.

      EXHIBIT 7: MATCHING REQUIREMENT NOT MET

            GRANT NUMBER        MATCH REQUIRED    AMOUNT MET   AMOUNT NOT MET
       2007-WS-Q7-0042                   $66,670            $0         $66,670
       2007-WS-Q7-0113                    66,670        39,100          27,570
                Total                   $133,340       $39,100         $94,240
      Source: Oklahoma City Accounting Records and Award Documentation

Accountable Property

      The OJP Financial Guide requires that award recipients maintain
property records to track nonexpendable property items purchased with
grant funds. The records should contain: (1) a description of the property,
(2) a serial number or other unique identification number, (3) the date the
property was purchased or received, and (4) where grantee stores or uses
the property. OMB Circular A-133 requires grantees to implement controls
to ensure property and equipment purchased with federal funds are properly
safeguarded and inventories be conducted every 2 years and reconciled
against accounting records.




      6
          Grant 2008-WS-QX-0189 is still ongoing and the match does not have to be met
until the end of the project period.


                                               16 

      As presented previously in our Exhibit 6, $469,867 was budgeted for
equipment. At the onset of our audit, we requested a copy of the inventory
of items purchased with federal grant funds. However, we were informed by
an OCPD official that there was no record that tracked and identified items
purchased with federal grant funds because the former Neighborhood
Services Department had not maintained one. That same official stated the
OCPD was in the process of attempting to complete an inventory of all items
purchased with federal grant funds.

       Oklahoma City’s accounting services procedure manual requires
departments to maintain an inventory of all items with a value of $7,500 or
under. City accounting records indicated grant funds were used to purchase
specific property items we examined while on-site. At the time of our
review, the OCPD had not completed the inventory and was unable to
specifically identify items purchased with grant funds. Because of Oklahoma
City’s failure to maintain appropriate accountable property inventory
records, we could not compare serial numbers or other identifying
information to substantiate they were the same items as in the accounting
records.

       Our transaction testing identified a number of items we believe should
be classified as nonexpendable property items, including printers, binoculars,
digital video cameras, desktop and laptop computers, video arcade games,
and flat-panel televisions. Exhibit 8 shows some of the items we found
on-site at Oklahoma City facilities.

            EXHIBIT 8: 	 EXAMPLES OF ITEMS IDENTIFIED BY THE OCPD AS
                         HAVING BEEN PURCHASED WITH OJP GRANT FUNDS




                    Oklahoma
                          City’s
                     Northeast
                       Center’s
                 “Cyber Café”
                   has several
                       items of
                 furniture paid
                  for with OJP
                  grant funds.




                                     17 

This 65-inch flat
 panel television
and cabinet was
 purchased with
OJP grant funds
        and is at
Oklahoma City’s
      Northeast
    Center. The
  items pictured
    cost $4,399.




                    18 

    This picture
  shows one of
  several $200
samarai sword
 Neighborhood
 Services used
 grant funds to
purchase. The
    OCPD later
   reversed the
   charges and
used non-DOJ
   funds to pay
      for these
        swords.




Oklahoma City’s
       Northeast
 Center features
  several arcade
  games paid for
  with OJP grant
    funds. Each
   arcade game
cost about $800.




Source: OIG and Oklahoma City Accounting Records




                            19 

       Without ensuring that city-level departments implement proper
tracking controls, Oklahoma City cannot assure that items purchased with
OJP grant funds are being used for allowable purposes. For example, before
our audit began, a pair of binoculars acquired with grant funds was used on
a hunting trip and subsequently sold to a local pawn shop. Because of a lack
of adequate property records, Oklahoma City found out about this improper
use of grant property only when another city employee saw the binoculars
for sale on a commercial website.

      We note that once the OCPD became responsible for the OJP grant
awards, it began compiling an inventory of property items. However,
because the OCPD is completing this inventory well after the time the
purchases were made, this inventory may not include all items purchased
with grant funds. Therefore, we recommend that OJP require Oklahoma City
to remedy the discrepancy and account for accountable property items
purchased with federal grant funds and require that those who administer
OJP grant funds keep proper and updated accountable property records.

Reports

      We reviewed FSRs and found they were not filed in a timely manner on
23 of 43 occasions, and that 15 of 43 inaccurately reported $599,513 in
expenditures that were not supported by the accounting records. 7
Appendix VI contains the details related to the timeliness and accuracy of
the FSRs.

Financial Status Reports

      According to the OJP Financial Guide, FSRs are required to be filed
within 45 days of the end of the quarter and within 90 days of the end of the
grant period.

       We reviewed the most recent four quarters of FSRs submitted for each
grant during the respective award periods and found they were generally not
filed in a timely manner according to the requirements of the OJP Financial
Guide. We noted that once the OCPD took over the administration of the
grant awards, the reports began to be filed on time.

      We also reviewed the same FSRs for accuracy and found that they did
not agree with the City’s accounting records and were, therefore, inaccurate


       7
         According to our agreement with the Acting U.S. Attorney for the Western District of
Oklahoma, we did not review or test Progress Reports or program performance and
accomplishments.


                                             20 

35 percent of the time. Therefore, we are recommending that OJP require
Oklahoma City to develop procedures to ensure accurate FSRs and amend
inaccurate FSRs as needed.

Compliance with Grant Requirements

      We reviewed the special conditions of the grant awards and found
there were 23 conditions that required Oklahoma City to accomplish key
requirements prior to OJP issuing a Grant Adjustment Notice (GAN) allowing
the City to continue with the project. We found that all 23 of the special
conditions had been met and corresponding GANs had been issued allowing
the projects to continue. Therefore, according to OJP, Oklahoma City
complied with these key requirements.

Monitoring Contractors

       According to the August 2008 OJP Financial Guide, direct recipients
should ensure that monitoring of organizations under contract to them is
performed in a manner that will ensure compliance with their overall
financial management requirements. The OCPD Business Manager stated
there were no specific policies or procedures that address contractor
monitoring requirements. Additionally, the Business Manager indicated that
it did not appear that any pre-award evaluation of the contractor’s financial
management systems and associated policies, procedures, and internal
controls was conducted. However, the Business Manager did point out that
both of the contractors were other local governmental agencies and that the
contractors were only reimbursed when they accomplished what they were
contracted to do.

      Although we noted no exceptions related to the contracts we reviewed,
we feel Oklahoma City should have a documented policy that identifies the
processes for monitoring any subrecipients. In addition, it should maintain
documentation that supports the City has completed the monitoring of sub-
recipients.

      We discussed these issues with representatives of Oklahoma City
during the course of the audit, as well as during a formal exit conference.
Their comments have been included in the report as applicable.




                                      21 

Recommendations

       We recommend that OJP:

1.	    Ensure that the City implements procedures to ensure that all
       departments that handle OJP grant funds maintain a proper internal
       control structure.

2.	    Require Oklahoma City to apply automatic restrictions on OJP grant
       subaccounts that prohibit transactions 90 days after the end of the
       performance period of each grant.

3. 	   Require Oklahoma City to provide documentation showing that
       individual charges adjusted to expired grant accounts were incurred
       before the end of the grant performance periods.

4.	    Remedy the $212,361 in questioned costs identified as unsupported or
       unallowable expenditures. In addition, remedy the $94,240 in
       matching contributions not met.

5.	    Require Oklahoma City to develop a timekeeping system that allows
       employees to track their time on multiple projects.

6.	    Require Oklahoma City to identify and account for funds in the
       appropriate budget categories.

7.	    Ensure that Oklahoma City remedies the discrepancies and accounts
       for accountable property items purchased with federal grant funds and
       requires proper and updated accountable property records.

8. 	   Require Oklahoma City to develop procedures to ensure accurate FSRs
       and amend inaccurate FSRs as needed.




                                      22 

                                                                  APPENDIX I 



           OBJECTIVES, SCOPE, AND METHODOLOGY


      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant and to determine program performance and
accomplishments. The objectives of this audit were to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) grant expenditures, including personnel and indirect
costs; (4) budget management and control; (5) matching; (6) property
management; (7) program income; (8) Financial Status Reports; and
(9) monitoring of subgrantees and contractors. In agreement with the
Acting United States Attorney for the Western District of Oklahoma, we
did not review program performance and accomplishments or Progress
Reports.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. These standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. The scope of our review encompassed October 2004, the start
date of an early Weed and Seed grant to Oklahoma City, to
September 2009, the date we began the audit.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

       In conducting our audit, we performed sample testing in five areas —
drawdowns, grant expenditures, matching, payroll, and property
management. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts, expenditure category, drawdowns, grant and matching
expenditures, and accountable property. This non-statistical sample design
does not allow projection of the test results to the universes from which the
samples were selected.

       In addition, we reviewed the timeliness and accuracy of FSRs,
evaluated compliance with grant requirements, and evaluated Oklahoma
City’s monitoring of its contractors. We did not test the reliability of the


                                       23 

                                                               APPENDIX I 



financial management system as a whole. Our testing involved gathering
data from the accounting system and verifying it to original invoices and
supporting documentation. In addition, we determined that there was
sufficient separation of duties and operating procedures were adequately
documented.




                                     24 

                                                                        APPENDIX II 



            SCHEDULE OF DOLLAR-RELATED FINDINGS 



                                                           AMOUNT            PAGE
    QUESTIONED COSTS
                 UNALLOWABLE
    Transactions                                               $137,577        11
    Personnel                                                   $27,847        15
    Budget Management and Control                               $27,008        15

                   UNSUPPORTED
    Drawdowns                                                    $3,535        11
    Transactions                                                $16,394        11

    MATCHING QUESTIONED COSTS                                   $94,240        16


    TOTAL DOLLAR-RELATED FINDINGS                             $306,601





Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                           25 

                                                                         APPENDIX III


           DRAWDOWNS VERSUS ACCOUNTING RECORDS 8
                                    Grant
                                Expenditures
                  Amount       Per Accounting                   Cumulative
     Date Of       Drawn        Records For     Cumulative     Expenditures
    Drawdown      Per OJP        Drawdown       Drawdowns     Per Accounting
     Per OJP        ($)          Period ($)     Per OJP ($)     Records ($)    Difference
                                        2004-WS-Q4-0227
      5/14/2007     50,000              50,000         50,000         50,000            0
                                        2005-WS-Q5-0064
       9/1/2005    100,000             104,534       100,000         104,534
       4/3/2006    110,000              86,216       210,000         190,751
      3/14/2007     15,000              32,189       225,000         222,939       (2,184)
                                        2005-WS-Q5-0164
      10/2/2006     75,000              92,095         75,000         92,095
       2/5/2007     25,000               7,905       100,000         100,000            0
                                        2005-WS-Q5-0302
       9/5/2007    150,000             120,378       150,000         120,378
       2/6/2008     25,000              54,097       175,000         174,475        (524)
                                        2006-WS-Q6-0083
       7/6/2007    100,000             116,457       100,000         116,457
       2/6/2008     75,000             111,580       175,000         228,037
      8/18/2008     50,000                 465       225,000         228,502        3,502
                                        2006-WS-Q6-0084
       7/6/2007    175,000             207,828       175,000         207,828
       2/8/2008     50,000              16,345       225,000         224,273        (827)
                                        2007-WS-Q7-0042
      12/9/2008    143,000             196,996       143,000         196,996
      6/11/2009     57,000               9,167       200,000         206,163        6,163
                                        2007-WS-Q7-0113
       5/7/2009    175,000             200,000       175,000         200,000
       5/7/2009     25,000                   0       200,000         200,000            0
                                        2007-DD-BX-0631
     12/16/2008    152,000             215,964       152,000         215,964
       7/1/2009    204,403             443,571       356,403         659,535      303,132
                                        2008-WS-QX-0189
     11/17/2009          0             114,702              0        114,702      114,702
                                        2008-PG-BX-0005
    12/16/2008     319,000             416,484       319,000         416,484
      7/8/2009     366,593             273,962       685,593         690,445        4,852
  Source: Office of Justice   Programs and City of Oklahoma City




       8
        Differences in total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding may differ from the sum of the individual numbers rounded.


                                              26 

                                                                          APPENDIX IV


      UNSUPPORTED TRANSACTIONS IDENTIFIED BY
             OIG TRANSACTION TESTING
                                             Transaction
                          Transaction          Amount
   Grant Number           Description            ($)            Reason Unsupported
2005-WS-Q5-0302        Telephone                      107    No detail for distribution
2005-WS-Q5-0064        Office Supplies                799    No invoice or receipt
                                                             No methodology for
                                                             allocating how much to
2005-WS-Q5-0064        Cell Phone                      473   charge to the grant
2006-WS-Q6-0083        Airfare                         330   No support provided
2006-WS-Q6-0084        Sporting Goods                4,158   No invoice or receipt
                                                             No methodology for
                                                             allocating how much to
2006-WS-Q6-0084        Cell Phone                     754    charge to the grant
                                                             No methodology for
                                                             allocating how much to
2006-WS-Q6-0084        Cell Phone                     472    charge to the grant
                                                             No invoice, receipt, or
2007-WS-Q7-0042        Travel: Airfare                403    travel voucher
                                                             No methodology for
                                                             allocating how much to
 2007-WS-Q7-0113     Travel                        3,786     charge to the grant
 2008-PG-BX-0005     Airfare                       1,422     No support provided
 2008-PG-BX-0005     Travel                        3,157     No support provided
 2008-PG-BX-0005     Unknown                         533     No support provided
     TOTAL UNSUPPORTED COSTS                      16,394 9
Source: OIG analysis of transactions identified by Oklahoma City accounting records




  9
      Figure reported as total unsupported costs includes rounded figures.


                                          27 

                                                                             APPENDIX IV


         UNALLOWABLE TRANSACTIONS IDENTIFIED BY
                OIG TRANSACTION TESTING
                                                       Transaction
                                                         Amount
 Grant Number            Transaction Description           ($)           Reason Unallowable
                                                                     Charged to grant after close­
2005-WS-Q5-0064 Building Rental                            10,385    out date
2005-WS-Q5-0064 Conference Registration Fees                2,720    Not approved in grant budget
                                                                     Charged to grant after
2005-WS-Q5-0064    Overtime pay                               124    closeout date
2005-WS-Q5-0302    Contract County Sheriff                 14,919    Not approved in grant budget
2005-WS-Q5-0302    Plumbing                                   420    Not approved in grant budget
2005-WS-Q5-0302    Phone equipment                            368    Not approved in grant budget
2006-WS-Q6-0083    Postage                                  3,119    Amount exceeded budget
2006-WS-Q6-0083    Pizza                                      333    Not approved in grant budget
2006-WS-Q6-0083    Lighting work                              300    Not approved in grant budget
                                                                     Not approved in grant
                                                                     budget/no accounting for
2006-WS-Q6-0083 Gift Certificates                            300     distribution
                                                                     Not approved in grant
                                                                     budget/no accounting for
2006-WS-Q6-0083 Gift Certificates                            200     distribution
2006-WS-Q6-0083 Food                                         101     Not approved in grant budget
                                                                     Not approved in grant
                                                                     budget/no accounting for
2006-WS-Q6-0083 Gift Certificates                            100     distribution
                                                                     CPTED not approved in
2006-WS-Q6-0084 Travel: CPTED Conference                    2,176    grant
2006-WS-Q6-0084 CPTED Conference Registration Fees          1,580    Not approved in grant budget
2006-WS-Q6-0084 Travel: NeighborWorks Conference            1,450    Not approved in grant budget
                                                                     Charged to grant after
2006-WS-Q6-0084    Fuel Chargeback                          1,340    closeout date
2006-WS-Q6-0084    Travel: NeighborWorks Conference         1,250    Not approved in grant budget
2006-WS-Q6-0084    Security Services                          485    Not approved in grant budget
2006-WS-Q6-0084    Vehicle Maintenance                        267    Not approved in grant budget
2006-WS-Q6-0084    Travel: CPTED Conference                   261    Not approved in grant budget
2006-WS-Q6-0084    Travel: CPTED Conference                   256    Not approved in grant budget
2006-WS-Q6-0084    Travel: CPTED Conference                   248    Not approved in grant budget
2007-WS-Q7-0042    Conference Registration Fees             2,065    Not approved in grant budget
2007-WS-Q7-0042    Camera Lenses                            1,131    Not approved in grant budget
                                                                     Not approved in grant
2007-WS-Q7-0113   Hotel Conference Room                     6,220    budget/meant for future grant
2007-WS-Q7-0113   CADCA Conference Registration Fees        2,325    Not approved in grant budget
2007-WS-Q7-0113   CADCA Conference Travel Advance           1,434    Not approved in grant budget
2007-WS-Q7-0113   CADCA Conference Travel Advance           1,280    Not approved in grant budget
2007-WS-Q7-0113   Travel: CADCA Conference Airfare            349    Not approved in grant budget
2007-WS-Q7-0113   Travel: CADCA Conference                    343    Not approved in grant budget
2007-WS-Q7-0113   Pizza Hut                                   141    Not approved in grant budget
2007-WS-Q7-0113   Travel: Violent Crime Conference            131    Not approved in grant budget
2007-WS-Q7-0113   Travel: Violent Crime Conference            119    Not approved in grant budget
2007-WS-Q7-0113   Travel: Violent Crime Conference            119    Not approved in grant budget




                                               28 

                                                                                  APPENDIX IV 


                                                      Transaction
  Grant Number        Transaction Description         Amount ($)       Reason Unallowable
2007-WS-Q7-0113 Travel: Violent Crime Conference             119 Not approved in grant budget
                                                                   Contract not ratified by the
2007-DD-BX-0631 Midwest City OT Reimbursement             47,437 City Council
2007-DD-BX-0631 Natural Gas                                4,498 Not approved in grant budget
2007-DD-BX-0631 Conference Registration Fees               3,000 Not approved in grant budget
2008-WS-QX-0189 Plumbing Service                             130 Not approved in grant budget
2008-WS-QX-0189 Air Condition Service                        191 Not approved in grant budget
2008-PG-BX-0005 Computer                                   6,480 Not approved in grant budget
2008-PG-BX-0005 Computer                                   1,454 Not approved in grant budget
2008-PG-BX-0005 TV and Sound System                        3,809 Not approved in grant budget
2008-PG-BX-0005 Utility                                      100 Not approved in grant budget
                                                                   Items not being used for any
2007-DD-BX-0631 30 Sets of Binoculars                     12,000 grant project or program.
          TOTAL UNALLOWABLE COSTS                       137,577 10
Source: OIG analysis of transactions identified by Oklahoma City accounting records




       10
            Figure reported as total unsupported costs include rounded figures.


                                                    29 

                                                                     APPENDIX V 



               BUDGET MANAGEMENT AND CONTROL 

                                         EXPENDITURES       AMOUNT        AMOUNT
                                        PER ACCOUNTING      UNDER          OVER
                           BUDGET          RECORDS          BUDGET        BUDGET
     COST CATEGORY           ($)              ($)             ($)           ($)
                                  2005-WS-Q5-0064
Personnel                     132,114            122,793        (9,321)
Fringe Benefits                22,148             19,543        (2,605)
Travel                           7,500            11,252                      3,752
Equipment                            0                 0
Supplies                         4,219             4,372                       153
Construction                         0                 0
Contract/Consultant            53,209             46,500        (6,709)
Other (space/utilities)          5,810            15,731                      9,921
Total Direct Costs            225,000            220,191       (18,635)      13,826
Indirect Costs
Total                         225,000
Federal Funds                 225,000
Local Match
                     Allowable 10% of Total Budget                           22,500
        Unallowable Amount (Amount Over Budget – 10% Allowable)                   0
Source: OIG Analysis of Office of Justice Programs and City of Oklahoma City Data

                                         EXPENDITURES      AMOUNT         AMOUNT
                                        PER ACCOUNTING     UNDER           OVER
                           BUDGET          RECORDS         BUDGET         BUDGET
     COST CATEGORY           ($)              ($)            ($)            ($)
                                   2007-WS-Q7-0113
 Personnel                     97,960           117,455                      19,495
 Fringe Benefits               24,499             13,042      (11,457)
 Travel                          5,000            10,715                      5,715
 Equipment                     21,557              1,075      (20,482)
 Supplies                        8,888            12,821                      3,933
 Construction                        0                 0
 Contract/Consultant           33,209             31,720       (1,489)
 Other (space/utilities)         8,887            13,173                      4,286
 Total Direct Costs           200,000           200,000       (33,428)       33,428
 Indirect Costs
 Total                       200,000
 Federal Funds               200,000
 Local Match
                     Allowable 10% of Total Budget                           20,000
        Unallowable Amount (Amount Over Budget – 10% Allowable)              13,428
Source: OIG Analysis of Office of Justice Programs and City of Oklahoma City Data




                                         30 

                                                                    APPENDIX V 


                                         EXPENDITURES      AMOUNT        AMOUNT
                                        PER ACCOUNTING     UNDER          OVER
                           BUDGET          RECORDS         BUDGET        BUDGET
     COST CATEGORY           ($)              ($)            ($)           ($)
                                   2007-WS-Q7-0042
 Personnel                    100,931            121,455                     21,064
 Fringe Benefits               29,330             22,008       (7,322)
 Travel                          5,000             4,535         (465)
 Equipment                       2,500                 0       (2,500)
 Supplies                        3,599             7,442                      3,843
 Construction                        0                 0
 Contract/Consultant           51,973             28,330      (23,643)
 Other (space/utilities)         7,207            15,880                      8,673
 Total Direct Costs           200,000            199,650      (33,930)       33,580
 Indirect Costs
 Total                       200,000
 Federal Funds               200,000
 Local Match                   66,670
                     Allowable 10% of Total Budget                           20,000
        Unallowable Amount (Amount Over Budget – 10% Allowable)              13,580
Source: OIG Analysis of Office of Justice Programs and City of Oklahoma City Data

                                         EXPENDITURES      AMOUNT        AMOUNT
                                        PER ACCOUNTING     UNDER          OVER
                           BUDGET          RECORDS         BUDGET        BUDGET
     COST CATEGORY           ($)              ($)            ($)           ($)
                                  2007-DD-BX-0631
 Personnel                    405,900           448,055                      42,155
 Fringe Benefits               82,534              7,077      (75,457)
 Travel                        18,360             23,910                      5,550
 Equipment                    268,109           116,469      (151,640)
 Supplies                      28,607             14,921      (13,686)
 Construction                       0                  0
 Contract/Consultant          125,474             47,437      (78,037)
 Other (space/utilities)            0              9,723                      9,723
 Total Direct Costs           928,984           667,592      (318,820)       57,428
 Indirect Costs
 Total                        928,984
 Federal Funds                928,984
 Local Match
                       Allowable 10% of Total Budget                         92,898
         Unallowable Amount (Amount Over Budget – 10% Allowable)                  0
 Note: This is an open grant that is still ongoing.
Source: OIG Analysis of Office of Justice Programs and City of Oklahoma City Data




                                         31 

                                                                    APPENDIX V 


                                        EXPENDITURES       AMOUNT          AMOUNT
                                       PER ACCOUNTING      UNDER            OVER
                           BUDGET         RECORDS          BUDGET          BUDGET
     COST CATEGORY           ($)             ($)             ($)             ($)
                                 2008-WS-QX-0189
 Personnel                    98,703             80,347       (18,356)
 Fringe Benefits              14,405              8,612        (5,793)
 Travel                        6,800              2,174        (4,626)
 Equipment                         0                  0
 Supplies                        677                217          (460)
 Construction                      0                  0
 Contract/Consultant          21,508             26,051                        4,543
 Other (space/utilities)       7,907             16,796                        8,889
 Total Direct Costs          150,000           134,197        (29,235)        13,432
 Indirect Costs
 Total                          150,000
 Federal Funds                  150,000
 Local Match                     50,000
                       Allowable 10% of Total Budget                         15,000
        Unallowable Amount (Amount Over Budget – 10% Allowable)                   0
 Note: This is an open grant that is still ongoing.
Source: OIG Analysis of Office of Justice Programs and City of Oklahoma City Data

                                         EXPENDITURES      AMOUNT
                                        PER ACCOUNTING     UNDER           AMOUNT
                           BUDGET          RECORDS         BUDGET        OVER BUDGET
      COST CATEGORY           ($)             ($)            ($)             ($)
                                   2008-PG-BX-0005
 Personnel                  1,039,940            444,032    (595,638)
 Fringe Benefits              217,512                  0    (217,512)
 Travel                         67,000            53,211     (13,789)
 Equipment                    228,087            138,840     (89,247)
 Supplies                     159,825                 46    (159,779)
 Construction                        0                 0
 Contract/Consultant          758,336            142,211     (616,125)
 Other (space/utilities)        29,300             1,339      (27,961)
 Total Direct Costs         2,500,000            779,950   (1,720,050)
 Indirect Costs
 Total                      2,500,000
 Federal Funds              2,500,000
 Local Match
                       Allowable 10% of Total Budget
        Unallowable Amount (Amount Over Budget – 10% Allowable)                   0
 Note: This is an open grant that is still ongoing.
Source: OIG Analysis of Office of Justice Programs and City of Oklahoma City Data




                                        32 

                                                                APPENDIX VI 



    FINANCIAL STATUS REPORT TIMELINESS

                       REPORT PERIOD          FSR         DATE       DAYS
   GRANT NUMBER       FROM – TO DATES      DUE DATES    SUBMITTED    LATE
 2004-WS-Q4-0227        1/1/06 – 3/31/06      5/15/06      6/13/06      29
                        4/1/06 – 6/30/06      8/14/06      9/28/06      45
                        7/1/06 – 9/30/06     11/14/06     12/18/06      34
                     10/1/06 – 12/31/06       3/31/07       2/9/07        0
 2005-WS-Q5-0064        7/1/05 – 9/30/05     11/14/05     11/16/05        2
                     10/1/05 – 12/31/05       2/14/06      2/15/06        1
                        1/1/06 – 3/31/06      5/15/06      6/19/06      35
                        4/1/06 – 5/30/06      8/28/06      9/27/06      30
 2005-WS-Q5-0164     10/1/05 – 12/31/05       2/14/06      2/15/06        1
                        1/1/06 – 3/31/06      5/15/06      6/13/06      29
                        4/1/06 – 6/30/06      8/14/06      8/18/06        4
                        7/1/06 – 9/30/06     12/29/06     11/16/06        0
 2005-WS-Q5-0302     10/1/06 – 12/31/06       2/14/07      2/11/07        0
                        1/1/07 – 3/31/07      5/15/07      5/15/07        0
                        4/1/07 – 6/30/07      8/14/07      8/15/07        1
                        7/1/07 – 9/30/07     12/29/07     12/19/07        0
 2006-WS-Q6-0083        1/1/07 – 3/31/07      5/15/07      5/15/07        0
                        4/1/07 – 6/30/07      8/14/07      8/15/07        1
                        7/1/07 – 9/30/07     11/14/07     12/19/07      35
                     10/1/07 – 12/31/07       3/31/08      3/28/08        0
 2006-WS-Q6-0084     10/1/06 – 12/31/06       2/14/07      2/11/07        0
                        1/1/07 – 3/31/07      5/15/07      5/16/07        1
                        4/1/07 – 6/30/07      8/14/07      8/15/07        1
                        7/1/07 – 9/30/07     12/29/07     12/31/07        2
 2007-WS-Q7-0042        1/1/08 – 3/31/08      5/15/08      5/20/08        5
                        4/1/08 – 6/30/08      8/14/08      8/20/08        6
                        7/1/08 – 9/30/08     11/14/08     11/14/08        0
                     10/1/08 – 12/31/08       3/31/09      5/12/09      42
 2007-WS-Q7-0113        1/1/08 – 3/31/08      5/15/08      5/20/08        5
                        4/1/08 – 6/30/08      8/14/08     11/14/08      92
                        7/1/08 – 9/30/08     11/14/08     11/14/08        0
                     10/1/08 – 12/31/08       3/31/09      5/12/09      42
 2007-DD-BX-0631        7/1/08 – 9/30/08     11/14/08     11/14/08        0
                     10/1/08 – 12/31/08       2/14/09      2/13/09        0
                        1/1/09 – 3/31/09      5/15/09      5/14/09        0
                        4/1/09 – 6/30/09      8/14/09      8/14/09        0
 2008-WS-QX-0189     10/1/08 – 12/31/08       2/14/09      2/15/09        1
                        1/1/09 – 3/31/09      5/15/09      5/14/09        0
                        4/1/09 – 6/30/09      8/14/09      8/14/09        0
 2008-PG-BX-0005        7/1/08 – 9/30/08     11/14/08     11/14/08        0
                     10/1/08 – 12/31/08       2/14/09      2/13/09        0
                        1/1/09 – 3/31/09      5/15/09      5/14/09        0
                        4/1/09 – 6/30/09      8/14/09      8/14/09        0
Source: Office of Justice Programs




                                    33 

                                                                   APPENDIX VII


            FINANCIAL STATUS REPORT ACCURACY 11
                                                                            DIFFERENCE
                                                         EXPENDITURES      BETWEEN FSR
                    REPORT PERIOD       EXPENDITURES    PER ACCOUNTING     & ACCOUNTING
  GRANT NUMBER     FROM – TO DATES        PER FSR          RECORDS          RECORDS 12
2004-WS-Q4-0227      1/1/06 – 3/31/06               0                  0                0
                     4/1/06 – 6/30/06               0                  0                0
                     7/1/06 – 9/30/06               0                  0                0
                   10/1/06 – 12/31/06               0              5,153            5,153
2005-WS-Q5-0064      7/1/05 – 9/30/05         20,378              20,619              241
                   10/1/05 – 12/31/05         35,988              46,485           10,497
                     1/1/06 – 3/31/06         11,818               5,377          (6,441)
                     4/1/06 – 5/30/06         55,629            123,813          (49,427)
2005-WS-Q5-0164    10/1/05 – 12/31/05               0                  0                0
                     1/1/06 – 3/31/06               0                  0                0
                     4/1/06 – 6/30/06         35,013              50,000           14,987
                     7/1/06 – 9/30/06         64,987              42,095         (22,892)
2005-WS-Q5-0302    10/1/06 – 12/31/06           5,100             11,307            6,207
                     1/1/07 – 3/31/07               0              9,820            9,820
                     4/1/07 – 6/30/07               0           (16,163)         (16,163)
                     7/1/07 – 9/30/07         10,907              25,742           14,835
2006-WS-Q6-0083      1/1/07 – 3/31/07         73,615              19,850         (53,765)
                     4/1/07 – 6/30/07         32,861              19,942         (12,919)
                     7/1/07 – 9/30/07         15,649              86,067           70,418
                   10/1/07 – 12/31/07         47,233              21,688         (25,545)
2006-WS-Q6-0084    10/1/06 – 12/31/06         31,735              44,686           12,951
                     1/1/07 – 3/31/07         36,254              44,262            8,008
                     4/1/07 – 6/30/07         31,863              47,854           15,991
                     7/1/07 – 9/30/07         82,055            (12,065)         (94,120)
2007-WS-Q7-0042      1/1/08 – 3/31/08         56,520              57,038              518
                     4/1/08 – 6/30/08         51,545              88,419           36,874
                     7/1/08 – 9/30/08         21,450              11,985          (9,465)
                   10/1/08 – 12/31/08         24,503               7,122         (17,381)




       11
           Differences in total amounts are due to rounding. For example, the sum of
individual numbers prior to rounding may differ from the sum of the individual
numbers rounded.
       12
          For those quarters that had a positive difference between the FSR and the
accounting records, we do not consider this an issue.


                                          34
                                                                   APPENDIX VII 


                                                                            DIFFERENCE
                                                         EXPENDITURES      BETWEEN FSR
                      REPORT PERIOD     EXPENDITURES    PER ACCOUNTING     & ACCOUNTING
  GRANT NUMBER       FROM – TO DATES      PER FSR          RECORDS          RECORDS 12
2007-WS-Q7-0113        1/1/08 – 3/31/08       59,821              82,502           22,681
                       4/1/08 – 6/30/08       53,319            109,050            55,731
                       7/1/08 – 9/30/08       19,560            (38,944)         (58,504)
                    10/1/08 – 12/31/08          8,922              3,221          (5,701)
 2007-DD-BX-0631       7/1/08 – 9/30/08       49,500              31,054         (18,446)
                    10/1/08 – 12/31/08        49,941              67,956           18,015
                       1/1/09 – 3/31/09      135,495            135,495                 0
                       4/1/09 – 6/30/09      302,773            303,133               360
 2008-WS-QX-0189    10/1/08 – 12/31/08          2,154              2,154                0
                       1/1/09 – 3/31/09       33,985              33,985                0
                       4/1/09 – 6/30/09       78,067              78,562              495
 2008-PG-BX-0005       7/1/08 – 9/30/08       86,300            156,139            69,839
                    10/1/08 – 12/31/08       321,902            137,812         (184,090)
                       1/1/09 – 3/31/09      208,836            184,182          (24,654)
                       4/1/09 – 6/30/09         7,489             75,893           68,404
Source: Office of Justice Programs and Oklahoma City




                                        35 

                                                                        APPENDIX VIII 


                    The City of
                    OKLAHOMA CITY
                    OFFICE OF THE CITY MANAGER




May 18, 2010


David M. Sheeren
Acting Regional Audit Manager
Dallas Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
207 South Houston Street, Box 4
Dallas, TX 75202

Dear Mr. Sheeren:

       This letter is a response to the draft audit report dated April 27, 2010 concerning ten Weed
and Seed Grants, one Targeting Violent Crime Initiative Grant, and one Anti-Gang Pilot Site
Program Grant at The City of Oklahoma City. A separate copy of the report has also been
provided to the Office of Justice Programs (OJP).

        The City of Oklahoma City Weed and Seed Office and its related grant programs were
transferred from the Neighborhood Services Department to the Police Department effective July
1, 2009. Police Department staff began a complete review of all grant programs to determine the
status of each. Certain errors and discrepancies were noted that led to a more intensive review of
grant documentation and a detailed inventory of all grant purchased equipment. Over the course
of the next two months, based upon the review by the Police Department, the City determined that
certain grant charges needed to be corrected and adjustments were made to move those charges to
the City's General Fund. By the latter part of August, the Police Department had completed a
significant amount of review work and determined that notification of the issues should be given
to the U.S. Attorney who chairs the Weed and Seed Steering Committee. After meeting with the
Police Department, the U.S. Attorney decided the Office of the Inspector General should be
notified. The OIG Inspector met with the Police Department to review the information and
decided to initiate the audit.


        The City responses to the recommendations listed on pages 20 and 21 of the draft audit
report are listed below.

       1. 	 The City of Oklahoma City will draft internal control policies and procedures for grant
            fund program managers.

       2. 	 The City of Oklahoma City will draft procedures to implement automatic transaction
            restrictions on grant subaccounts 90 days after the grant performance period.


            200 North Walker, Oklahoma City, Oklahoma 73102 • 405/297-2345 • Fax 405/297-2406

                                                 36 

                                                                    APPENDIX VIII 



       3. 	The City of Oklahoma City will provide all available documentation for charges
           adjusted to expired grant accounts which were incurred before the end of the grant
           performance periods.

       4. 	 The City of Oklahoma City will work with OJP to discuss appropriate remedies and
            mitigating factors.

       5. 	 he City of Oklahoma City will utilize a timekeeping system to meet the
          T
          recommended objective. Procedures for timekeeping will be included in the program
          manager internal control policies and procedures.

       6. 	 The City of Oklahoma City will implement the use of program codes or account level
            budgets for all grants with restricted line item budgets. This will limit over-
            expenditure at the budget category level in accordance with applicable grant
            requirements.

       7. 	 The City of Oklahoma City will request guidance from OJP and comply with OJP
            instructions regarding accountable property purchased with Federal grant funds.

       8. 	The City of Oklahoma City will draft policies and procedures to ensure accurate
           FSR's and will amend inaccurate FSR's as needed.




                                           /s/ M. T. Berry
                                          M. T. Berry
                                          Assistant City Manager

                                           /s/ Laura A. Johnson
                                          Laura A. Johnson
                                          Finance Director


cc: William Citty 	                                 Linda J. Taylor
    Chief of Police                                 Lead Auditor
    City of Oklahoma City                           Audit and Review Division
                                                    Office of Audit, Assessment and
   Jeffery A. Haley                                 Management
   Deputy Director
   Audit and Review Division                         Richard P. Theis

   Office of Audit, Assessment and 
                 Assistant Director

   Management 
                                      Audit Liaison Group
                                                     Justice Management Division



                                            37 

                                                                               APPENDIX IX 

                                                      U.S. Department of Justice
                                                      Office of Justice Programs
                                                      Office of Audit, Assessment, and Management

                                                      Washington, D.C. 20531


MAY 26, 2010

MEMORANDUM TO: 	 David M. Sheeren
                 Acting Regional Audit Manager
                 Office of the Inspector General
                 Dallas Regional Audit Office

                         /s/ M. A. Henneberg
FROM:                    Maureen A. Henneberg
                         Director


SUBJECT: 	               Response to the Draft Audit Report, Office of Justice Programs,
                         Community Capacity Development Office and Bureau of Justice
                         Assistance, Grants Awarded to Oklahoma City, Oklahoma


This memorandum is in response to your correspondence, dated April 27, 2010, transmitting the
subject draft audit report for Oklahoma City (City). We consider the subject report resolved and
request written acceptance of this action from your office.

The report contains eight recommendations and $306,601 in questioned costs. For ease of
review, the draft audit report recommendations are restated in bold and are followed by
the Office of Justice Programs (OJP) response.

1. 	   We recommend that OJP ensures that the City implements procedures
       to ensure that all departments that handle OJP grant funds maintain a
       proper internal control structure.

       We agree with the recommendation. We will coordinate with the City to obtain a copy of
       implemented procedures ensuring that all departments that handle OJP grant funds
       maintain a proper internal control structure.

2. 	   We recommend that OJP requires the City to apply automatic restrictions on OJP
       grant subaccounts that prohibit transactions 90 days after the end of the
       performance period of each grant.

       We agree with the recommendation. We will coordinate with the City to ensure that they
       apply automatic restrictions on OJP grant subaccounts that prohibit transactions 90 days
       after the end of the performance period of each grant.

                                               38 

                                                                            APPENDIX IX 



 3. 	    We recommend that OJP requires the City to provide documentation showing that
         individual charges adjusted to expired grant accounts were incurred before the end
         of the grant performance periods.

         We agree with the recommendation. We will coordinate with the City to obtain
         documentation showing that individual charges adjusted to expired grant accounts were
         incurred before the end of the grant performance periods.

 4. 	    We recommend that OJP remedy the $212,361 in questioned costs identified as 

         unsupported or unallowable expenditures. In addition, remedy the $94,240 in 

         questioned matching contributions not met. 


         We agree with the recommendation. We will coordinate with the City to remedy the
         $212,361 in questioned costs related to unsupported or unallowable expenditures
         charged to various grants and the $94,240 in matching contributions not met for grant
         numbers 2007-WS-Q7-0042 and 2007-WS-Q7-0113.

 5. 	    We recommend that OJP requires the City to develop a timekeeping system that 

         allows employees to track their time on multiple projects. 


         We agree with the recommendation. We will coordinate with the City to ensure they
         develop a timekeeping system that allows employees to track their time on multiple
         projects.

 6. 	    We recommend that OJP requires the City to identify and account for funds in the
         appropriate budget categories.

         We agree with the recommendation. We will coordinate with the City to ensure they
         identify and account for funds in the appropriate budget categories.

7. 	    We recommend that OJP ensures that the City remedy the discrepancies and
        accounts for accountable property items purchased with Federal grant funds and
        requires proper and updated accountable property records.

        We agree with the recommendation. We will coordinate with the City to remedy the
        discrepancies in inventory records. Additionally, we will ensure that the City implements
        practices to properly account for accountable property items purchased with Federal
        grant funds, and maintain proper and updated accountable property records.

8. 	    We recommend that OJP requires the City to develop procedures to ensure accurate
        Financial Status Reports (FSRs) and amend inaccurate FSRs as needed.

        We agree with the recommendation. We will coordinate with the City to ensure that they
        develop and implement procedures to ensure accurate preparation and revision of Federal
        Financial Reports as needed.

                                                    2
                                                39 

                                                                          APPENDIX IX 



        We appreciate the opportunity to review and comment on the draft audit report. If you
        have any questions or require additional information, please contact Jeffery A. Haley,
        Deputy Director, Audit and Review Division, on (202) 616-2936.

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management
        Amanda LoCicero           

        Budget Analyst         

        Bureau of Justice Assistance 


        Gerardo Velazquez
        Program Manager
        Bureau of Justice Assistance

        Faith Baker
        Associate Director
        Community Capacity Development Office

        Samuel Beamon 

        Program Manager 

        Community Capacity Development Office 


        Richard P. Theis
        Assistant Director
        Audit Liaison Group
        Justice Management Division

        OJP Executive Secretariat 

        Control Number 20100750 





                                                    3
                                               40
                                                           APPENDIX X 



OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION 

ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO 

                CLOSE THE REPORT


      The OIG provided the draft audit report to OJP and the City for
review and comment. The OJP response is included as Appendix IX,
and the City response is included as Appendix VIII of this final report.

      In response to our audit report, OJP and the City agreed with all
eight of our recommendations. They provided discussion of the
actions the City will implement in response to our findings. The status
and actions necessary to close the recommendations is provided
below.

1.	   Resolved. OJP and the City concurred with our
      recommendation that the City implement procedures to ensure
      all departments that handle OJP grant funds maintain a proper
      internal control structure. This recommendation can be closed
      when the City provides the OIG with implemented procedures
      requiring all City departments that handle OJP grant funds to
      maintain a proper internal control system that includes
      appropriate segregation of duties.

2.	   Resolved. OJP and the City concurred with our
      recommendation that the City apply automatic restrictions on
      OJP grant subaccounts that prohibit transactions 90 days after
      the end of the performance period of each grant. This
      recommendation can be closed when the City provides the OIG
      with City management certification that automatic restrictions
      prohibiting transactions from occurring on DOJ grants 90 days
      after the end of the performance period is in place.

3.	   Resolved. OJP and the City concurred with our
      recommendation that the City provide documentation showing
      that individual charges to expired grants accounts were incurred
      before the end of the grant performance periods. This
      recommendation can be closed when the City provides the OIG
      documentation that substantiates the individual charges to
      expired grants were incurred prior to the end of the grant
      performance periods. If such documentation cannot be
      provided, the OJP should provide evidence that the funds have
      been returned.



                                   41 

                                                         APPENDIX X 



4.	   Resolved. OJP and the City concurred with our
      recommendation that the City remedy the $212,361 in
      questioned costs identified as unsupported or unallowable
      expenditures and the $94,240 in matching contributions not
      met. This recommendation can be closed when the City provides
      the OIG with documentation to support the unsupported
      expenditures or documentation that substantiates the
      unallowable expenditures were allowable according to the
      approved grant award. In addition, provide documentation that
      substantiates that the matching contribution was met. If
      appropriate supporting documentation cannot be provided,
      evidence that the funds have been returned to OJP.

5.	   Resolved. OJP and the City concurred with our
      recommendation that the City develop a timekeeping system
      that allows employees to track their time on multiple projects.
      This recommendation can be closed when the City provides the
      OIG with documentation that substantiates a timekeeping
      system has been implemented at the City that requires
      employees to track their time spent working on federal grant
      projects in accordance with OMB Circular A-87.

6.	   Resolved. OJP and the City concurred with our
      recommendation that the City identify and account for funds in
      the appropriate budget categories. This recommendation can be
      closed when the City provides the OIG with documentation that
      accounts for all funds in the appropriate budget category for
      each of the three grants in which a determination could not be
      made as to what budget category the funds belonged.

7.	   Resolved. OJP and the City concurred with our
      recommendation that the City remedy the discrepancies and
      account for property items purchased with federal grant funds
      and provide proper and updated accountable property records.
      This recommendation can be closed when the City provides the
      OIG with documentation substantiating that an inventory has
      been completed and that the inventory properly accounts for all
      nonexpendable property items purchased with OJP grant funds.

8.	   Resolved. OJP and the City concurred with our
      recommendation that the City develop procedures to ensure
      future FSRs submitted by the City are accurate and amend
      inaccurate FSRs as needed. This recommendation can be closed
      when the City provides the OIG with documentation that


                                  42 

                                                APPENDIX X 



substantiates procedures have been implemented to ensure
accurate FSRs are submitted and copies of amended FSRs
required by OJP.




                          43 

